               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




              Vehicle Parts Inventory
              Management – Capping

                       Audit Report




                                      March 26, 2014

Report Number DR-AR-14-005
                                                                        March 26, 2014

                                                              Vehicle Parts Inventory
                                                              Management – Capping

                                                        Report Number DR-AR-14-005



BACKGROUND:
The U.S. Postal Service has 321 vehicle     WHAT THE OIG FOUND:
maintenance facilities (VMFs), or repair    Managers at selected VMFs generally
garages, nationwide to maintain its fleet   purchased and maintained parts
of over 211,000 vehicles. The selected      inventories at the appropriate levels. At
33 VMFs in the five areas we reviewed,      these selected VMFs, about 16 percent
Capital Metro, Eastern, Great Lakes,        of on-hand parts balances were below
Southern, and Western, maintained           the recommended levels because parts
34,118 vehicles. Two primary national       were either due in or on back order.
suppliers provide the VMFs with vehicle     Maintaining adequate supplies of parts
parts ranging from motors and               is critical to ensuring vehicle repairs are
transmissions to nuts and bolts. VMFs       conducted timely and economically.
can also purchase repair parts locally
when the national suppliers are out of      Physical safeguards and inventory
stock or have backordered parts.            management controls over vehicle parts
                                            were not always adequate at selected
In fiscal year 2013, management in          VMFs. Managers at these sites were not
these five areas spent over $207 million    always aware of security risks and
to purchase vehicle parts. Each VMF         policies regarding safeguarding assets
maintains repair parts in a stockroom.      and conducting physical inventories.
Postal Service policies require regular     Inadequate controls placed vehicle parts
inventories to ensure parts quantities      valued at over $49 million at risk.
are sufficient and accurate. Personnel
must also safeguard these assets.           WHAT THE OIG RECOMMENDED:
                                            We recommended the vice presidents,
Our objectives were to determine            area operations, Capital Metro,
whether VMF personnel were                  Eastern, Great Lakes, Southern, and
purchasing and maintaining vehicle          Western areas, direct district managers
parts at appropriate levels and             to re-emphasize physical security and
management controls were adequate to        inventory management policies and
safeguard inventory. This audit is the      procedures. We also recommended
final in a series conducted by the U.S.     implementing training for stockroom
Postal Service Office of Inspector          personnel and re-emphasizing
General. We previously reviewed the         purchasing and receiving policies and
Northeast and Pacific areas in              procedures.
September 2012 and April 2013,              Link to review the entire report.
respectively.
March 26, 2014

MEMORANDUM FOR:             KRISTIN A. SEAVER
                            VICE PRESIDENT, CAPITAL METRO AREA

                            JOSHUA D. COLIN
                            VICE PRESIDENT, EASTERN AREA

                            JACQUELINE M. KRAGE-STRAKO
                            VICE PRESIDENT, GREAT LAKES AREA

                            JO ANN FEINDT
                            VICE PRESIDENT, SOUTHERN AREA

                            DREW T. ALIPERTO
                            VICE PRESIDENT, WESTERN AREA




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – Vehicle Parts Inventory Management –
                            Capping (Report Number DR-AR-14-005)

This report presents the results of our audit of the Vehicle Parts Inventory
Management – Capping (Project Number 13XG042DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Vehicle Parts Inventory Management – Capping                                                                       DR-AR-14-005



                                            TABLE OF CONTENTS
Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Vehicle Parts Purchases and Levels ............................................................................... 2

Vehicle Parts Inventory Safeguards ................................................................................ 2

   Physical Security Access Control ................................................................................ 2

   Inventory and Purchasing Procedures ......................................................................... 5

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objectives, Scope, and Methodology .......................................................................... 9

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Inventory and Purchasing Procedures ...................................................... 13

Appendix C: Other Impacts ........................................................................................... 14

Appendix D: Management's Comments ........................................................................ 17
Vehicle Parts Inventory Management – Capping                                                          DR-AR-14-005




Introduction

This report presents the results of our self-initiated audit of Vehicle Parts Inventory
Management – Capping (Project Number 13XG042DR000). Our objectives were to
determine whether vehicle maintenance facility (VMF) personnel were purchasing and
maintaining vehicle parts at appropriate levels and management controls were
adequate to safeguard inventory. This audit is the final in the series conducted by the
U.S. Postal Service Office of Inspector General (OIG) and covers the Capital Metro,
Eastern, Great Lakes, Southern, and Western areas.1 We previously reviewed the
Northeast and Pacific areas in September 2012 and April 2013, respectively. See
Appendix A for additional information.

The U.S. Postal Service has 321 VMFs nationwide to maintain a fleet of over 211,0002
vehicles. VMF officials acquire parts via the parts consignment program3 from two
primary national ordering agreement (NOA) suppliers: Wheeler Brothers, Incorporated
and Jasper Innovative Solutions, Incorporated. These suppliers establish order point4
inventory levels for NOA parts, usually based on 12 months of average use, and jointly
manage parts order points with VMF personnel. Facility personnel can also purchase
repair parts locally. Each VMF has a stockroom to store and manage vehicle parts.
Personnel at the facilities must perform regular inventories of vehicle parts to ensure
purchases are entered correctly, quantities on-hand are recorded correctly, and
discrepancies are investigated and corrected. Additionally, personnel must safeguard all
assets.5

Conclusion

Managers at VMFs in selected areas6 generally purchased and maintained inventories
for parts at the appropriate levels. At these selected VMFs, about 16 percent of on-hand
parts balances were below the recommended levels. However, managers had placed
orders to replenish these parts at the required levels. Physical safeguards and inventory
management controls over vehicle parts at selected VMFs were not always adequate.
Management at these sites was not always aware of security risks and policies
regarding safeguarding assets and conducting physical inventory. Because of
inadequate controls, vehicle parts valued at $49 million were at risk. See Appendix C for
additional information.



1
  We reviewed 33 randomly selected VMFs that maintained 34,118 vehicles.
2
  United States Postal Service Fiscal Year 2013 Annual Report to Congress.
3
  Mandatory use of the Consignment of Vehicle Repair Parts Inventory Program for VMFs began in 1997.
4
  The order point level is the on-hand quantity that triggers replenishment of parts to avoid adversely impacting
maintenance and repair services. With implementation of the Solutions for Enterprise Asset Management (SEAM)
application, maximum levels are no longer established for NOA parts.
5
  Vehicle Maintenance Bulletin (VMB) 02-11, Review of Stockroom Policy and Procedures, April 15, 2011.
6
  Capital Metro, Eastern, Great Lakes, Southern, and Western.
                                                             1
 Vehicle Parts Inventory Management – Capping                                                         DR-AR-14-005




 Vehicle Parts Purchases and Levels

 Managers at selected VMFs purchased and maintained inventories of parts at the
 appropriate levels. Managers purchased 89 percent of parts from NOA suppliers and
 11 percent from local vendors (see Table 1).

                    Table 1. Fiscal Year (FY) 2013 Vehicle Parts Purchases7

                                                                  Percentage                            Percentage
                          Total                  NOA                of NOA            Non-NOA           of Non-NOA
      Area              Purchases              Purchases          Purchases           Purchases          Purchases
 Capital Metro             $14,457,539            $12,742,278          88%               $1,715,261          12%
 Eastern                     2,990,897              2,752,655          92%                  238,242           8%
 Great Lakes                   581,733                542,593          93%                   39,140           7%
 Southern                    4,723,053              4,124,165          87%                  598,888          13%
 Western                     6,071,596              5,626,972          93%                  444,624           7%
 Total                     $28,824,818            $25,788,663          89%               $3,036,155          11%
Source: Enterprise Data Warehouse (EDW).

 Further, at the time of our review, these facilities maintained inventories of 52,409 parts.
 Our analysis showed that 84 percent of the parts, totaling 43,877, were maintained
 within the required levels, and 16 percent of the parts, totaling 8,532, were below those
 levels. However, management had placed orders to replenish these parts to the
 required level.

 Vehicle Parts Inventory Safeguards

 Physical safeguards and inventory management controls over vehicle parts were not
 always adequate at some VMFs. Managers at these 33 sites were not always aware of
 security risks and policies regarding safeguarding assets and conducting physical
 inventories.

 Physical Security Access Control

 Managers did not always secure vehicle parts storage locations in accordance
 with Postal Service stockroom access and security8 policies at the following 10 VMFs:

     Bellmawr VMF: The stockroom back door, which is not visible to stockroom
      personnel, was unlocked during operating hours. We observed a sign posted on the
      door, which states doors must remain latched at all times (see Figure 1).




 7
  Numbers may differ due to rounding.
 8
  VMB 02-11 states, in part, that stockroom access should be physically limited to personnel designated to issue
 parts and tools.

                                                          2
Vehicle Parts Inventory Management – Capping                                   DR-AR-14-005




                              Figure 1. Stockroom Door Unlocked




                              Source: OIG photograph taken November 7, 2013.

      Hampton VMF: VMF management established an "open door" policy, which
       allows stockroom doors to remain open and unattended throughout the day.
       During our site visit, we noted the stockroom was not limited to personnel
       responsible for issuing parts and tools and we observed technicians without
       authorization entering the stockroom to obtain parts (see Figure 2).

                                  Figure 2. Open Stockroom Door




                          Source: OIG photograph taken November 6, 2013.




                                                  3
Vehicle Parts Inventory Management – Capping                                  DR-AR-14-005



       Houston, Kalamazoo, Lancaster, and Saint Paul VMFs: The stockrooms were not
        limited to personnel designated to issue parts and tools. During our observations,
        the stockroom doors were not locked and we saw technicians without
        authorization enter the stockrooms to obtain parts and tools (see Figure 3).

                    Figure 3. Open Stockroom Door, Kalamazoo VMF




                         Source: OIG photograph taken November 21, 2013.



   Johnstown VMF: On the day of our visit, a stockroom door, which was not visible to
    stockroom personnel, was unlocked. The stockroom contained engines and tires.

   Lehigh Valley VMF: The stockroom door that contained all inventory parts was not
    locked.

   Reno VMF: The door to the storage shed located behind the facility containing
    engines, tires, tire rims, and transmissions was open and unlocked.

   Topeka VMF: Stockroom doors were not closed or locked.




                                                  4
Vehicle Parts Inventory Management – Capping                                                       DR-AR-14-005




Inventory and Purchasing Procedures

Our analysis of inventory records showed management did not always ensure
mandatory inventories were conducted. Also, management did not always ensure
separation of duties for purchasing and receiving stock items as required by policies
and procedures for mandatory or interim monthly inventories.9 Specifically:

    Thirty of the 33 VMFs consistently conduct monthly mandatory inventories.

    Thirteen of the 30 VMFs that conducted monthly inventories did not always use two
     people to conduct them.

    Twenty-three of the 30 VMFs that conducted monthly inventories did not always
     use non-stockroom personnel to assist in physical counts to ensure separation of
     duties.

    Seventeen of the 33 VMFs did not establish separation of duties for purchasing and
     receiving stock items.10 See Appendix B, Inventory and Purchasing Procedures.

The main factors that contributed to inadequate physical safeguards and inventory
management controls were:

     Managers not being aware of physical security or access control weaknesses.

     Managers not being aware of, or not enforcing, required procedures to maintain a
      separation of duties for monthly inventory accounting and for purchasing and
      receiving stock items.

Inconsistent mandatory inventories and a lack of separation of duties increase the
likelihood of loss and theft of vehicle parts. Because of inadequate inventory controls,
assets valued at $49,211,277 were at risk.




9
  VMB 02-11 requires mandatory or interim inventories be performed each month, with specific part numbers
identified to be counted. The inventory team must consist of two people, including a person not assigned to the
stockroom.
10
   VMB 02-11 requires facility managers to prepare Standard Operating Procedures identifying the alternative
process for the requester or purchaser to receive goods and services. Handbook AS-709, Purchase Card Policies
and Procedures for Local Buying, states the purchase card can only be used by the purchaser. No other person can
be authorized to use the card account number to make a purchase.

                                                        5
Vehicle Parts Inventory Management – Capping                                  DR-AR-14-005




Recommendations

We recommend the vice presidents, area operations, Capital Metro, Eastern, Great
Lakes, Southern, and Western areas, direct district managers to:

1.   Re-emphasize stockroom management policies and procedures on physical
     security and inventory management, including conducting mandatory inventories at
     vehicle maintenance facilities.

2.   Implement training for stockroom personnel on security and inventory procedures
     and processes.

3.   Re-emphasize stockroom management policies and procedures on purchasing
     and receiving duties.

Management’s Comments

Management generally agreed with the findings and recommendations.

Regarding recommendation 1, Capital Metro Area officials stated they communicated to
VMF management to maintain separation of duties to properly account for all
inventories and the importance of maintaining stockroom security at all times. They also
stated they locked down the Hampton VMF to limit access to assigned individuals and
provided service talks on February 5, 2014. Eastern Area officials stated they will
continue to coordinate efforts to ensure VMF managers and craft employees are
adequately trained. Management will provide documentation to the OIG by April 30,
2014. Great Lakes Area officials stated they will develop standard operating procedures
for locations where stockroom personnel are not available during hours of operation to
ensure the same level of security as facilities with full-time personnel. They will also
communicate the policies and procedures to district managers and the districts will
develop stand-up talks with an implementation date of April 2014.

Further, Southern Area officials stated they generated a letter of instruction directing
district managers to re-emphasize stockroom management policies and procedures on
physical security and inventory management. The completion date for this action was
March 12, 2014. Lastly, Western Area officials stated management issued follow-up
guidance and an inventory checklist to VMF managers on October 2, 2013. Western
Area officials also stated they instructed VMF managers to re-emphasize stockroom
policies and procedures in accordance with Handbook F-1, Accounting and Reporting
Policy and created a BlueShare repository to document that all VMFs completed the
monthly mandatory inventories. Management implemented actions on March 14, 2014.

Regarding recommendation 2, management stated they have trained or will train
stockroom personnel on security and inventory processes and procedures.
Management implemented training on the following dates: Capital Metro Area, January


                                               6
Vehicle Parts Inventory Management – Capping                                                     DR-AR-14-005



7-16, 2014; Eastern Area, April 30, 2014; Great Lakes Area, June 2014; Southern Area,
March 12, 2014; and Western Area, April 30, 2014.

Regarding recommendation 3, Capital Metro Area officials stated they re-emphasized
policies and procedures for purchasing and receiving duties during the two training
sessions in January 2014 and in an email sent to personnel on February 5, 2014.
Eastern Area officials stated they will continue to coordinate efforts to ensure adequate
training is provided by April 30, 2014. Great Lakes Area officials stated they would re-
emphasize the policies and procedures in locations where sufficient personnel are
present for separating receiving duties. In remaining facilities, they will prepare a
standard operating procedure to identify an alternate process by May 2014. Southern
Area officials stated they directed management to emphasize the policies and
procedures in their letter of instructions issued on March 12, 2014. Lastly, Western Area
officials stated they created a separation of duty document based on information in
Handbook F-1, Accounting and Reporting Policy, on March 14, 2014. Further, they
stated that Appendix B, page 15, of the report showed separation of duties issues for
the Topeka, Reno, Saint Paul, and Salt Lake City VMFs; however, page 12 showed
there was separation of duties.11

See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report. The
OIG reviewed Western Area management’s documentation provided with their
comments to show corrective actions implemented for recommendations 1 and 3. We
concur that the actions taken sufficiently addressed the recommendations. No additional
actions are required from the Western Area regarding recommendations 1 and 3.
Regarding management’s comment for separation of duties results, our analysis
showed the Topeka, Reno, Saint Paul, and Salt Lake City VMFs did not always use
non-stockroom personnel to assist in monthly inventories to ensure separation of duties,
as required.12 We require written confirmation from Western Area management when
they complete corrective actions for recommendation 2.

For the remaining areas, the OIG considers all recommendations significant and,
therefore, requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective actions are completed. These recommendations
should not be closed in the Postal Service’s follow-up tracking system until the OIG
provides written confirmation that they can be closed.


11
   Page numbers changed to 16 and 13, respectively, due to insertion of management’s comments and evaluation of
management’s comments.
12
   VMB 02-11 requires mandatory or interim inventories be performed each month, with specific part numbers
identified to be counted. The inventory team must consist of two people, including a person not assigned to the
stockroom.


                                                       7
Vehicle Parts Inventory Management – Capping                                                       DR-AR-14-005




                                  Appendix A: Additional Information

Background

The Postal Service operates one of the largest vehicle fleets in the U.S. During
FY 2013, the Postal Service owned over 211,000 vehicles. The agency has 321 VMFs
nationwide to maintain these vehicles. Economical maintenance of the fleet requires
ready availability of needed parts and materials. To this end, management must have
established stockrooms at every VMF. The five selected areas spent over $207 million
to purchase and transfer vehicle parts nationwide in FY 2013 (see Table 2).

                           Table 2. FY 2013 Costs for VMF Vehicle Parts


                                       Area            Cost of Vehicle Parts

                                Capital Metro                       $33,141,304

                                Eastern                               46,575,640

                                Great Lakes                           35,311,977

                                Southern                              54,463,514

                                Western                             38,088,917
                                Total                             $207,581,352
                                 Source: Postal Service EDW, September 30, 2013.

Vehicles repair parts can be purchased through the consignment program13 from two
national suppliers or locally from vendors. These suppliers provide parts ranging from
motors, transmissions, tires, and batteries to nuts, bolts, and screws. Through the
consignment process, selected vehicle repair parts are ordered, received, and stocked
at VMFs. The parts remain the property of the NOA supplier until VMF personnel use
them to repair a vehicle, at which time the Postal Service is charged for them. In
contrast, invoices for non-NOA parts are processed upon receipt by accounts payables,
resulting in inventory costs to the Postal Service. Outside suppliers should only be used
as a backup when the NOA suppliers are out of stock or have backordered parts.

Solutions for Enterprise Asset Management (SEAM) is a web-based application
designed to improve inventory tracking and visibility, implement forecasting and
automatic replenishment capabilities, and standardize asset tracking maintenance
repair functions. The Postal Service implemented SEAM to replace the Vehicle
Management Accounting System (VMAS). As of FY 2013, all Postal Service areas have
transitioned to SEAM. VMF personnel and NOA suppliers jointly manage parts order
13
     Mandatory use of the Consignment of Vehicle Repair Parts Inventory Program for VMFs began in 1997.

                                                         8
Vehicle Parts Inventory Management – Capping                                                  DR-AR-14-005



points. NOA parts are entered into SEAM as part of the NOA supplier on-hand inventory
at the VMF. Once a part is issued to a work order for vehicle maintenance, the part is
paid for through SEAM and the NOA supplier information is updated. In contrast to
VMAS, SEAM allows NOA suppliers to view all VMF inventory use and levels. This
helps them replenish inventory at the VMFs. NOA suppliers may inventory and pull-back
their own stock at the VMFs if required by their accountants or other circumstances.

VMF personnel must safeguard and perform regular physical inventories of their vehicle
parts to ensure purchases are entered correctly, quantities on hand are recorded
correctly, and discrepancies are investigated and corrected.

Objectives, Scope, and Methodology

Our objectives were to determine whether vehicle parts were purchased and maintained
at appropriate levels and management controls were adequate to safeguard inventory.

Our audit scope includes assessing vehicle parts inventory data processes and
procedures used to maintain inventory stock levels, and safeguard vehicle parts at
selected VMFs in the Capital Metro, Eastern, Great Lakes, Southern, and Western
areas. Specifically, we:

    Obtained data from the EDW to determine national, area, and district costs for
     vehicle parts and supplies.

    Randomly selected for review and visited 33 VMFs in the five areas.

    Obtained SEAM data to determine the inventory on hand and vehicle parts costs at
     selected VMFs.

    Obtained FY 2013 parts use data and determined the average use for randomly
     selected parts.

    Compared the yearly average use to the total number of parts purchased or issued
     by the non-NOA suppliers for FY 2013.

    Observed physical security and access controls at selected VMFs.

    Conducted interviews with VMF personnel and obtained documentary evidence
     regarding inventory levels and controls.

    Reviewed applicable documentation, policies, and procedures.14


14
  Documentation, policies, and procedures reviewed include Handbook PO-701, Fleet Management; VMB V-02-97,
Vehicle Maintenance Standard Operating Procedures; VMB-04-03, Mandatory (Interim) Physical Inventories; and
VMB 02-11, Review of Stockroom Policy and Procedures, April 15, 2011.


                                                     9
Vehicle Parts Inventory Management – Capping                                DR-AR-14-005



We conducted this performance audit from September 2013 through March 2014 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with area management from January 27 through
February 5, 2014, and included their comments where appropriate.

We assessed the reliability of vehicle parts data from EDW, SEAM, and supplier
information networks by reviewing various data elements and interviewing personnel
knowledgeable about the data and the parts purchased. To verify NOA suppliers’ parts
data, we compared NOA suppliers parts inventory reports to parts stored at the selected
facilities. We determined the data were sufficiently reliable for the purposes of this
report.




                                               10
Vehicle Parts Inventory Management – Capping                                 DR-AR-14-005




Prior Audit Coverage

                              Report          Final Report          Monetary Impact
    Report Title             Number                Date
Vehicle Parts             DR-AR-13-003          4/12/2013                 None
Inventory
Management –
Pacific Area
Report Results:
Our report found that inventory balances for 79 percent of the parts were sufficient and
within established levels, with 21 percent below recommended levels. Parts were not at
required levels because they were either due in, or on back order. Not maintaining
established inventory levels could potentially impact vehicle repairs being timely and
economical. Furthermore, managers at some VMFs did not always safeguard parts and
perform mandatory physical inventories because they were not always aware of
security risks and policies regarding safeguarding assets and physical inventory. As a
result of inadequate controls, vehicle parts valued at $23,125,255 were at risk.
Management agreed with the findings and recommendations, but, while acknowledging
the need to maintain order point inventory levels to prevent repair delays, improve
security, and train for stock room personnel, disagreed with the dollar value of the
assets at risk.

Consigned Vehicle       FT-AR-13-010         3/18/2013                    None
Parts
Report Results:
Our report found that supervisors did not consistently monitor physical inventories and
personnel did not always adequately determine whether Postal Service-owned parts
were available. As a result, management could not ensure accurate parts issuance and
expensing and suppliers could inappropriately charge the Postal Service for parts. Also,
VMF personnel did not consistently determine whether warranties were available or
adequately validate parts credits. The VMFs could have obtained an additional
$750,000 in annual warranty reimbursements and about $345,000 in annual parts
credits. Also noted accounting adjustments were nominal and the Postal Service had
procedures in place to address them. Management agreed, in part, with
recommendations 2, 3, and 5; however, they disagreed with recommendations 1 and 4.




                                               11
Vehicle Parts Inventory Management – Capping                                DR-AR-14-005




                                  Report            Final Report   Monetary Impact
      Report Title               Number                 Date
Vehicle Parts Inventory        DR-AR-12-007          9/24/2012               None
Management –
Northeast Area
Report Results:
Our report found that 81 percent of the parts inventory balances were maintained at
designated levels, 18 percent were below minimum levels, and only 1 percent
exceeded the maximum level. Not maintaining minimum inventory levels could
potentially increase delays in vehicle repairs. Further, parts inventory was not always
safeguarded because managers were not aware of security risks and policies regarding
safeguarding of assets. As a result of inadequate controls, vehicle parts valued at
$8,331,963 were at risk. Management agreed with the findings and recommendations
but, while acknowledging the security issues, disagreed with the dollar value of the
assets at risk.




                                               12
            Vehicle Parts Inventory Management – Capping                                         DR-AR-14-005




                                  Appendix B: Inventory and Purchasing Procedures

                                                                      Consistently
                                                                       Used Two            Used          Separation of
                                                       Consistently    People to      Non-Stockroom        Duties for
                                                        Conducted       Conduct        Personnel to       Purchasing
                                                         Monthly        Monthly      Assist in Monthly   and Receiving
   Area               District               VMF       Inventories    Inventories       Inventories       Stock Items
Capital
Metro            Baltimore            Baltimore            Yes            Yes              Yes                  Yes
                 Capital              Suburban             Yes            Yes              Yes                  Yes
                                      Washington,
                                      D.C.                 Yes            Yes              Yes                  Yes
                 Greater South
                 Carolina             Columbia             Yes            Yes              No                   No
                 Greensboro           Raleigh              Yes            Yes              No                   No
                                      Winston Salem        Yes            Yes              No                   No
                 Mid-Carolinas        Charlotte            Yes            Yes              No                   No
                 Richmond             Hampton              Yes            No               No                   No
                                      Richmond             Yes            Yes              Yes                  Yes
Eastern          Central
                 Pennsylvania         Lancaster            Yes            Yes              Yes                  No
                                      Lehigh Valley        Yes            No               No                   No
                 Kentuckiana          Louisville           Yes            Yes              No                   Yes
                 Philadelphia         Philadelphia         No             No               No                   No
                 South Jersey         Bellmawr             Yes            Yes              No                   Yes
                 Western
                 Pennsylvania         Erie                 Yes            Yes              Yes                  No
                                      Johnstown            Yes            No               No                   Yes
                                      Wheeling             Yes            No               No                   Yes
                 Western New
                 York                 Buffalo              Yes            Yes               No                  Yes
Great
Lakes            Greater Michigan     Kalamazoo            Yes            No               No                   No
                 Lakeland             Milwaukee            Yes            Yes              Yes                  No
Southern         Dallas               Texarkana            Yes            Yes              Yes                  Yes
                 Fort Worth           Fort Worth           Yes            Yes              Yes                  Yes
                 Gulf Atlantic        Pensacola            Yes            No               No                   No
                 Houston              Houston              Yes            No               No                   No
                 Louisiana            New Orleans          Yes            No               No                   No
                 Oklahoma             Oklahoma City        Yes            Yes              Yes                  Yes
Western          Central Plains       Topeka               Yes            Yes              No                   Yes
                                      Wichita              No             No               No                   No
                 Dakotas              Billings             Yes            No               No                   No
                 Nevada-Sierra        Reno                 Yes            Yes              No                   Yes
                 Northland            Minneapolis          Yes            No               No                   No
                                      Saint Paul           Yes            No               No                   Yes
                 Salt Lake City       Salt Lake City       No             Yes              No                   Yes
                                      Totals                3             13               23                   17
Source: OIG analysis based on observation.




                                                              13
Vehicle Parts Inventory Management – Capping                                                          DR-AR-14-005




                                       Appendix C: Other Impacts

           Recommendation                         Impact Category                           Amount

                      1                            Assets at Risk15                      $49,211,277

The OIG reviewed inventory controls at 33 randomly selected VMFs in the Capital
Metro, Eastern, Great Lakes, Southern, and Western areas. At 27 locations, we
identified physical security weaknesses or inadequate controls over inventory
management processes. The assets at risk at the VMFs we visited totaled
$18,700,619 in FY 2013 (see Table 3). Based on this sampling of inadequate inventory
controls, we projected assets at risk of $49,211,27716 in FY 2013 for VMFs in the
five areas within the scope of our review.

                              Table 3. Vehicle Parts Inventory Controls


                                                                                                     Dollar Value
                                                                                                          of
                                                                         Internal Control             FY 2013
   Area                   District                 VMF                    Risk Category             Assets at Risk
 Capital
 Metro          Baltimore                  Baltimore              None                                             -
                                           Suburban               None                                             -
                Capital
                                           Washington, D.C.       None                                             -
                Greater
                South Carolina             Columbia               Separation of Duties                    $714,276
                                           Raleigh                Separation of Duties                    2,957,034
                Greensboro
                                           Winston Salem          Separation of Duties                    1,133,521

                Mid-Carolinas              Charlotte              Separation of Duties                    2,209,563
                                                                  Physical Security,
                Richmond                   Hampton                Separation of Duties                      440,675
                                           Richmond               None                                             0
                Sub-total                                                                               $7,455,069




15
   Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.
16
   Based on a 90 percent confidence level for a stratified variable projection.


                                                         14
Vehicle Parts Inventory Management – Capping                                       DR-AR-14-005




                                                                             Dollar Value of
                                                         Internal Control         FY 13
   Area           District                 VMF            Risk Category      Assets at Risk
 Eastern                                              Physical Security,
             Central             Lancaster            Separation of Duties          $150,865
             Pennsylvania                             Physical Security,
                                 Lehigh Valley        Separation of Duties           237,209
             Kentuckiana         Louisville           Separation of Duties           230,033
             Philadelphia        Philadelphia         Separation of Duties           454,759
                                                      Physical Security,
             South Jersey        Bellmawr             Separation of Duties           379,273
                                 Erie                 Separation of Duties           550,017
             Western                                  Physical Security,
             Pennsylvania        Johnstown            Separation of Duties           417,410
                                 Wheeling             Separation of Duties           300,802
             Western
             New York            Buffalo              Separation of Duties           270,529
             Sub-total                                                            $2,990,897


                                                                             Dollar Value of
                                                         Internal Control         FY 13
   Area           District                 VMF            Risk Category      Assets at Risk
 Great                                                Physical Security,
 Lakes       Greater Michigan    Kalamazoo            Separation of Duties          $144,129
             Lakeland            Milwaukee            Separation of Duties           437,604
             Sub-total                                                              $581,733


                                                                             Dollar Value of
                                                         Internal Control         FY 13
   Area           District                 VMF            Risk Category      Assets at Risk
 Southern
             Dallas              Texarkana            Separation of Duties          $266,634
             Fort Worth          Fort Worth           None                                     -

             Gulf Atlantic       Pensacola            Separation of Duties           155,264


                                                      Physical Security,
             Houston             Houston              Separation of Duties           878,348

             Louisiana           New Orleans          Separation of Duties           300,078
             Oklahoma            Oklahoma City        None                                     -
             Sub-total                                                            $1,600,324



                                                 15
Vehicle Parts Inventory Management – Capping                                            DR-AR-14-005




                                                                                  Dollar Value of
                                                              Internal Control         FY 13
   Area            District                   VMF              Risk Category      Assets at Risk
 Western                                                   Physical Security,
              Central Plains       Topeka                  Separation of Duties          $406,659
                                   Wichita                 Separation of Duties           798,727
               Dakotas             Billings                Separation of Duties            79,208
                                                           Physical Security,
              Nevada-Sierra        Reno                    Separation of Duties           124,876
                                   Minneapolis             Separation of Duties         2,734,907
              Northland                                    Physical Security,
                                   Saint Paul              Separation of Duties         1,758,132
              Salt Lake City       Salt Lake City          Separation of Duties           169,087
              Sub-total                                                                $6,071,596
                                                           Total
                                                           Assets at Risk             $18,700,619
Source: OIG analysis based on EDW, FY 2013 Expense Detail Report.




                                                    16
Vehicle Parts Inventory Management – Capping                  DR-AR-14-005



                          Appendix D: Management's Comments




                                               17
Vehicle Parts Inventory Management – Capping        DR-AR-14-005




                                               18
Vehicle Parts Inventory Management – Capping        DR-AR-14-005




                                               19
Vehicle Parts Inventory Management – Capping        DR-AR-14-005




                                               20
Vehicle Parts Inventory Management – Capping        DR-AR-14-005




                                               21
Vehicle Parts Inventory Management – Capping        DR-AR-14-005




                                               22
Vehicle Parts Inventory Management – Capping        DR-AR-14-005




                                               23
Vehicle Parts Inventory Management – Capping        DR-AR-14-005




                                               24
Vehicle Parts Inventory Management – Capping        DR-AR-14-005




                                               25
Vehicle Parts Inventory Management – Capping        DR-AR-14-005




                                               26
Vehicle Parts Inventory Management – Capping        DR-AR-14-005




                                               27
Vehicle Parts Inventory Management – Capping        DR-AR-14-005




                                               28
Vehicle Parts Inventory Management – Capping        DR-AR-14-005




                                               29
Vehicle Parts Inventory Management – Capping        DR-AR-14-005




                                               30
Vehicle Parts Inventory Management – Capping        DR-AR-14-005




                                               31
Vehicle Parts Inventory Management – Capping        DR-AR-14-005




                                               32
